audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the City of Denton, Texas, Police Department
GR-80-99-010
April 13, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of Denton Police Department in Denton, Texas.  The Denton Police Department received a grant of $225,000 to hire three police officers under the Accelerated Hiring, Education, and Deployment (AHEAD) program, and a total of $1,575,000 to hire 21 police officers under the Universal Hiring Program (UHP).  The purpose of the AHEAD and UHP grants was to hire additional officers to enhance community policing efforts.

	Generally, the Denton Police Department properly managed the COPS grants; however, we found the following discrepancies with regard to meeting grant conditions:

The Financial Status Reports did not accurately reflect the actual expenses of the City of Denton for the officers hired under the COPS grants.  The total cumulative outlays were overstated by $15,496.

	Three Financial Status Reports were not submitted timely.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix I.